No. _ _ _ __

Jfn tbe ~upreme

~ourt

of tbe Wniteb ~tates

Dixon v. United States of America
AFFIDAVIT OF SERVICE
I, Shelly N. Gannon, being eighteen years or older, do certify under penalty of
perjury that the following is true and correct.
On this, the 18th day of May, 2020, Pursuant to (ORDER LIST: 589 U.S.) I
filed the foregoing petition with the United States Supreme Court electronically and
deposited one (1) paper copy via UPS Ground Transportation, and served via
electronic mail of the same, to the following:

Noel J. Francisco, Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
(202) 514-2217

Jennifer P. May-Parker
Office of the U.S. Attorney
150 Fayetteville Street, Suite 2100
Raleigh, NC 27601
usance.ecfappeals@usdoj.gov

Counsel to Respondent

Shelly N. Ga o
ellate Services, LLC
Gibson Mo e
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770 - Telephone
(804) 249-7771 - Facsimile
shelly@gibsonmoore.net

For:
Raymond C. Tarlton
Counsel of Record
209 Fayetteville Street
Suite 105
Raleigh, NC 27601
(919) 948-6464
rtarlton@tarltonpolk.com

Counsel for Petitioner
Signed and subscribed before me on this the 18th day of May, 2020.

